TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                            Accuracy-Related Penalties
                          Are Seldom Considered Properly
                           During Correspondence Audits



                                           June 4, 2010

                              Reference Number: 2010-30-059




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


ACCURACY-RELATED PENALTIES ARE                       to enhance penalty and interest revenue by an
SELDOM CONSIDERED PROPERLY                           estimated $3.5 million. Because the audits
DURING CORRESPONDENCE AUDITS                         reviewed were conducted through the mail, they
                                                     did not entail complicated areas of tax law.
                                                     Each of the audits also resulted in the taxpayer
Highlights                                           agreeing they owed additional taxes of at least
                                                     $5,000. The $5,000 threshold is important
Final Report Issued on June 4, 2010                  because it allowed TIGTA to review audits for
                                                     which examiners were required to consider
                                                     assessing an accuracy-related penalty.
Highlights of Reference Number: 2010-30-059 to
the Internal Revenue Service Commissioners for       WHAT TIGTA RECOMMENDED
the Small Business/Self-Employed Division and
the Wage and Investment Division.                    TIGTA recommended that the Director, Campus
                                                     Compliance Services, Small Business/
IMPACT ON TAXPAYERS                                  Self-Employed Division, and the Director,
                                                     Compliance, Wage and Investment Division,
The accuracy-related penalty is designed to
                                                     follow through to ensure planned training is
promote voluntary compliance by imposing an
                                                     completed by all correspondence examiners and
economic cost on taxpayers who choose not to
                                                     their managers and that the training specifically
comply with the tax law. Because penalties are
                                                     addresses when the accuracy-related penalty is
not always considered and applied when
                                                     applicable, how case files should be
warranted, the Internal Revenue Service (IRS)
                                                     documented, and when managerial approval is
may be missing opportunities to further promote
                                                     required. They should also require managers
voluntary compliance and enhance revenue for
                                                     and examiners to properly complete the
the Department of the Treasury.
                                                     accuracy-related penalty lead sheets for all
WHY TIGTA DID THE AUDIT                              applicable audits.

This audit was initiated to determine whether the    IRS management agreed with the
accuracy-related penalty was assessed during         recommendations and plans to take appropriate
correspondence audits in accordance with IRS         corrective actions. The Director, Campus
policies and procedures. The audit was               Compliance Services, Small Business/
conducted as part of our Fiscal Year 2010            Self-Employed Division, and the Director,
Annual Audit Plan and addresses the major            Compliance, Wage and Investment Division,
management challenge of Tax Compliance               plan to conduct accuracy-related penalty training
Initiatives.                                         and emphasize managerial reviews for penalty
                                                     assertion/nonassertion. Also, IRS management
WHAT TIGTA FOUND                                     plans to submit a programming request to add
                                                     the penalty lead sheets to the Campus Report
Despite an emphasis on case file documentation
                                                     Generating System and ensure the
and layers of management controls, additional
                                                     accuracy-related penalty is considered in
steps must be taken to ensure procedures are
                                                     Program Analysis System quality reviews.
followed in considering and recommending the
accuracy-related penalty during correspondence
audits. A review of a statistical sample of
229 correspondence audits closed in Fiscal
Year 2008 found 211 (92 percent) audits for
which penalties were not considered and
assessed in accordance with IRS policies and
procedures.
As a result, opportunities may have been missed
to promote compliance among an estimated
1,851 taxpayers in the population reviewed and
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 4, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Accuracy-Related Penalties Are Seldom
                             Considered Properly During Correspondence Audits
                             (Audit # 200930033)

 This report presents the results of our review to determine whether the accuracy-related penalty
 was assessed during correspondence audits in accordance with Internal Revenue Service policies
 and procedures. This audit was conducted as part of our Fiscal Year 2010 Annual Audit Plan
 and addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                                     Accuracy-Related Penalties Are Seldom
                                Considered Properly During Correspondence Audits




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          A Number of Management Controls Have Been Developed to Help
          Guide the Penalty-Setting Process ................................................................Page 3
          A Substantial Number of Accuracy-Related Penalties Were
          Not Applied When Warranted ......................................................................Page 5
                    Recommendation 1:..........................................................Page 7

                    Recommendation 2:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Negligence Penalty Lead Sheet.............................................Page 16
          Appendix VI – Substantial Understatement Penalty Lead Sheet..................Page 18
          Appendix VII – Management’s Response to the Draft Report.....................Page 20
             Accuracy-Related Penalties Are Seldom
        Considered Properly During Correspondence Audits




                 Abbreviations

FY         Fiscal Year
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
SB/SE      Small Business/Self-Employed
                             Accuracy-Related Penalties Are Seldom
                        Considered Properly During Correspondence Audits




                                       Background

Our tax system is based on the public’s willingness to
voluntarily prepare an accurate tax return, file it timely,
and pay any tax due on time. To encourage voluntary               To encourage voluntary
                                                               compliance, Congress placed
compliance, Congress placed numerous penalty                  numerous penalty provisions in
provisions in the tax laws for the Internal Revenue             the tax laws for the Internal
Service (IRS) to administer through its audit and various     Revenue Service to administer.
other compliance programs.
Spread across the four operating divisions, the IRS audit program is one of its largest compliance
programs. IRS examiners are primarily responsible for determining the correct liabilities for
taxpayers by conducting audits. Audits of individual taxpayers can range from reviewing their
tax returns and resolving questionable items by corresponding with them through the mail to a
detailed face-to-face examination of a taxpayer’s financial records at his or her place of business.
In contrast to the more labor-intensive face-to-face examination, the correspondence audit
process is less intrusive, more automated, and conducted by examiners who are trained to deal
with and focus on less complex tax issues. Importantly, correspondence audits also enable the
IRS to reach more taxpayers at a lower cost.
During audits, examiners are also responsible for considering the accuracy-related penalty when
recommending adjustments to tax liabilities. This penalty, which includes negligence and
substantial understatement, is designed to promote the preparation and submission of complete
and correct information on tax returns, as well as impose an economic cost on taxpayers who
choose not to comply with the tax law.
Examiners may recommend imposing the negligence penalty when a taxpayer fails to make a
reasonable attempt to comply with the tax law or exercise ordinary and reasonable care in
preparing his or her return. Taxpayers may also be assessed a negligence penalty if they do not
keep adequate books and records. On the other hand, the substantial understatement penalty can
be assessed against individual taxpayers who understate their tax by 10 percent of the tax
required to be shown on their return and the understatement is also equal to or greater than
$5,000. The penalty for both the negligence and substantial understatement penalty is 20 percent
of the underpayment.
This review was performed at the Small Business/Self-Employed (SB/SE) Division Headquarters
Office in New Carrollton, Maryland; Wage and Investment Division Headquarters Office in
Atlanta, Georgia; the SB/SE Division Campus Examination function in Philadelphia,
Pennsylvania; and the Wage and Investment Division Compliance Examination Discretionary
Programs function in Fresno, California, during the period July 2009 through February 2010.

                                                                                             Page 1
                            Accuracy-Related Penalties Are Seldom
                       Considered Properly During Correspondence Audits



We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 2
                               Accuracy-Related Penalties Are Seldom
                          Considered Properly During Correspondence Audits




                                  Results of Review

Despite an emphasis on documentation and layers of management controls, additional steps must
be taken to ensure procedures are followed in considering and recommending the
accuracy-related penalty during correspondence audits. A review of a statistical sample of
229 correspondence audits closed in Fiscal Year (FY) 2008 found 211 (92 percent) audits for
which penalties were not considered and assessed in accordance with IRS policies and
procedures.

A Number of Management Controls Have Been Developed to Help
Guide the Penalty-Setting Process
The IRS ultimately relies on its examiners to properly consider and assess penalties when
warranted during audits. In accordance with the Government Accountability Office’s Standards
for Internal Control in the Federal Government, 1 the IRS has developed a number of management
controls to assist examiners in meeting this responsibility. For example, there is a broad policy
statement on penalties that provides guidance nationwide to examiners and other IRS personnel
who are involved in IRS programs and activities. As outlined in Figure 1, the policy statement
contains goals that underscore the role penalties play in promoting compliance with, and fairness
in, the tax system by imposing an economic cost on those who do not voluntarily comply with
the tax laws.




1
    GAO/AIMD-00-21.3.1, November 1999.
                                                                                          Page 3
                                Accuracy-Related Penalties Are Seldom
                           Considered Properly During Correspondence Audits



                                Figure 1: IRS Penalty Policy Goals

              Goals                                           Overview
 Enhance and encourage              Penalties provide an important tool to promote compliance and
 compliance                         fairness in the tax system by increasing the costs for those who
                                    do not comply with the tax laws.
 Curb the use of abusive tax        Accuracy-related penalties combat the undermining effect
 transactions                       abusive transactions have on the tax system.
 Promote sound and efficient        Penalties may occasionally be waived as part of a strategy to
 tax administration                 encourage prompt resolution of tax issues.
 Promote consistency in             The Servicewide Penalty organization residing in the
 applying penalties                 SB/SE Division reviews and approves changes to its Penalty
                                    Handbook, which all agency employees are to use and follow.
 Demonstrate fairness of the        Provide taxpayers with opportunities to provide reasons why
 tax system                         penalties should not be assessed by considering evidence in
                                    favor of not assessing penalties.
Source: Our analysis of IRS Policy Statement 20-1.

The IRS uses its Internal Revenue Manual (IRM) to support and elaborate upon the goals in the
penalty policy. From a control perspective, the IRM serves to provide detailed instructions and
explanations to examiners of the statutory and administrative procedures to follow in considering
and recommending penalty assessments. Throughout the IRM, as well as in management
directives, training materials, and the quality measurement standards, examiners are instructed to
properly document in case files all aspects of their work during an audit including penalty
considerations and assessments.
Proper case file documentation is important because it provides the principal evidence that
procedures were followed, as well as the foundation for other control processes such as
managerial reviews and quality measurement systems. When a taxpayer challenges a penalty
determination, the documentation becomes especially crucial. In these instances, the facts and
circumstances developed and documented by the examiner are used in deciding whether the
penalty should be upheld. Consequently, according to IRS procedures, documenting statements
such as “no penalties applicable” or “the taxpayer did not appear to have intentional disregard for
the law” are unacceptable and should not be used without additional supporting information.
At the divisional level, the quality measurement staff reviews samples of examination cases to
assess the degree to which examiners comply with the policy and procedures for considering and
assessing penalties during audits. In addition to reviews by the quality measurement staff,
mid-level managers may evaluate ongoing work in open audits during their operational reviews.
Operational reviews are required to be performed at least annually to ensure work is being done

                                                                                               Page 4
                                 Accuracy-Related Penalties Are Seldom
                            Considered Properly During Correspondence Audits



in conformance with procedures. These processes serve as a quality control by identifying
managerial, technical, and procedural problems and providing a basis for corrective actions.
At the examiner level, first-line managers are an important control component because they are
responsible for the quality of work performed by the examiners they supervise. They use a
variety of techniques to ensure examiners’ work is meeting acceptable standards and procedures
are followed in considering, documenting, and assessing penalties. These techniques include
observations and discussions with examiners and reviews of work during audits and after they
are closed. Through the observations, discussions, and reviews, first-line managers attempt to
identify problems so examiners can take prompt corrective actions.

A Substantial Number of Accuracy-Related Penalties Were Not
Applied When Warranted
Despite the IRS’ emphasis on case file documentation and layers of management controls,
additional steps must be taken to ensure procedures are properly followed in considering and
recommending the accuracy-related penalty during correspondence audits. We evaluated a
statistical sample of 229 correspondence audits that were closed in FY 2008 and found
211 (92 percent) audits involving 209 taxpayers where penalties were not considered and
assessed in accordance with IRS policies and procedures.
As a result, opportunities may have been missed to promote voluntary compliance among the
209 taxpayers and enhance Federal revenue from penalties and interest by approximately
$395,000. When projected to the 2,012 taxpayers involved in our universe of 2030 audits, we
estimate that 1,851 taxpayers should have been assessed approximately $3.5 million in penalties
and interest. 2 When projected over a 5-year period, we estimate the IRS may miss the
opportunity to promote compliance among 9,255 taxpayers and enhance revenue by
$17.5 million.
The audits we reviewed were conducted through the mail and, accordingly, did not entail
complicated areas of tax law. Each of the audits also resulted in the taxpayer agreeing he or she
owed additional taxes of at least $5,000. The $5,000 threshold is important to note because it
allowed us to review cases where examiners were required to consider assessing the substantial
understatement penalty. Moreover, IRS officials who reviewed our work agreed with our
conclusions.
For example, in 19 audits, taxpayers could not substantiate their employee business expenses and
were assessed additional tax of $137,617. In another 43 audits, taxpayers agreed that they
omitted more than $356,210 in alternative minimum taxes when they filed their tax returns.


2
 We projected to the universe of taxpayers from which we selected our statistical sample using a 95 percent
confidence level, a precision of ±5 percent, and an error rate of 79 percent.

                                                                                                              Page 5
                               Accuracy-Related Penalties Are Seldom
                          Considered Properly During Correspondence Audits



Although the IRS considers the substantial overstatement of deductions a potential fraud
indicator, there was no documentation that indicated the manager and examiner developed an
action plan in the case files as required. In addition, the accuracy-related penalty was not applied
even though we did not find any obvious reasons why they should not have been applied.

Prior reviews identified similar problems with considering and recommending
penalties during audits
Our results in this review are consistent with prior reports we have issued 3 and with findings IRS
officials continue to identify through their control processes. For example, we reported that IRS
field examiners were either too lenient and did not recommend penalties that were warranted or
had not documented case files indicating that applicable penalties were considered in 35 of
45 corporate audits reviewed.
To improve how penalties are considered and assessed during audits, we made a number of
recommendations that included establishing a requirement for first-line managers to approve
examiner decisions not to assess the substantial understatement penalty. IRS executives agreed
with the recommendation and, in July 2008, updated the IRM to require managerial approval of
decisions not to assess the penalty. However, despite the corrective action taken, we identified
14 cases in this review that were opened and closed after the requirement was established in
which examiners decided not to assess the substantial understatement penalty and none of the
decisions were approved by managers.
National quality analysts conducted quality reviews of closed cases and identified problems with
accuracy-related penalty determinations. As a result, a Quality Alert notice was issued
reminding examiners of their responsibility to assess the accuracy-related penalty, when
applicable, and the documentation requirements. In FY 2009, mid-level manager operational
reviews also identified concerns with examiners properly following the IRS’ penalty-setting
process during correspondence audits. To resolve current findings, IRS officials told us they are
planning to provide examiners with training that would emphasize the use of the
accuracy-related penalty whenever applicable and remind examiners and their managers about
the documentation required in case files. While we agree that additional training is needed,
existing lead sheets could be used more consistently to reinforce training as well as guide and
document penalty decisions.




3
 The Strategy to Reemphasize Penalties in Corporate Examinations Could Be Enhanced (Reference Number
2005-30-123, dated August 23, 2005).
                                                                                                   Page 6
                                   Accuracy-Related Penalties Are Seldom
                              Considered Properly During Correspondence Audits



Existing accuracy-related penalty lead sheets need to be a mandatory tool used
in correspondence audits.
As discussed earlier in this report, the IRS has layers of management controls to help ensure
correct decisions are made and documented in case files. However, the fact that 92 percent of
the cases we sampled had penalty errors indicates that correct penalty decisions should be a very
serious concern in correspondence audits.
During our case reviews, we used the IRS’ administrative lead sheets 4 to evaluate whether the
penalties were assessed in accordance with IRS policies and procedures. While these lead sheets
are designed to guide and document penalty decisions, examiners are not required to use them
during correspondence audits. As a result, we did not see these tools being used despite the fact
that the lead sheets were well-designed and easily accessible electronically through the IRS
intranet.
Notably, the lead sheets solicit answers to important statutory, procedural, and process questions,
as well as references to where supporting documentation for the answers are located in the case
file. The lead sheets also solicit managerial review of decisions not to assess the substantial
understatement penalty. In instances when taxpayers do not agree with an examiner’s penalty
determination, the documents seek written documentation outlining the reasons for the
disagreement.
Seeking written documentation for disagreements can be especially useful when there is a
substantial understatement given that the standard for assessing the penalty contains objective
criteria. In effect, a substantial understatement penalty generally should apply in an examination
when an understatement exceeds 10 percent of the tax required to be shown on the return and is
also equal to or greater than $5,000. While the penalty can be avoided, certain conditions must
first be met and the burden of proof for meeting those conditions is on the taxpayer.

Recommendations
The Director, Campus Compliance Services, SB/SE Division, and the Director, Compliance,
Wage and Investment Division, should:
Recommendation 1: Follow through to ensure planned training is completed by all
correspondence examiners and their managers. The training should specifically address when
the accuracy-related penalty is applicable, how case files should be documented, and when
managerial approval is required.
           Management’s Response: IRS management agreed with this recommendation. The
           Director, Campus Compliance Services, SB/SE Division, and the Director, Compliance,
           Wage and Investment Division, will conduct accuracy-related penalty training, which

4
    See Appendices V and VI for examples of administrative lead sheets.
                                                                                            Page 7
                           Accuracy-Related Penalties Are Seldom
                      Considered Properly During Correspondence Audits



      will include the penalty criteria, case file documentation, and the requirement for
      managerial approval for penalty assertion/nonassertion.
Recommendation 2: Require that managers and examiners properly complete the
accuracy-related penalty lead sheets for all applicable audits.
      Management’s Response: IRS management agreed with this recommendation. The
      Director, Campus Compliance Services, SB/SE Division, and the Director, Compliance,
      Wage and Investment Division, will submit a programming request to add penalty lead
      sheets to the Campus Report Generating System. They will emphasize the importance of
      managerial reviews and ensure that the accuracy-related penalties are being considered in
      Program Analysis System quality reviews.




                                                                                            Page 8
                                Accuracy-Related Penalties Are Seldom
                           Considered Properly During Correspondence Audits



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The objective of the review was to determine whether the accuracy-related penalty was assessed
during correspondence audits in accordance with IRS policies and procedures. To accomplish
our objective, we:
I.      Reviewed a statistical sample of 229 correspondence audits closed in FY 2008 using a
        confidence level of 95 percent, a precision level of ±5 percent, and an error rate of
        79 percent. A statistical sample was taken because we wanted to estimate the number of
        audits and amount of dollars associated with not properly considering the
        accuracy-related penalty during correspondence audits for a population of 2,030 audits
        involving 2,012 taxpayers.
        A. Obtained an extract from the Audit Information Management System 1 closed case
           data file to identify the population of FY 2008 audits of individual income tax returns
           filed by high-income taxpayers (more than $200,000 containing Activity Codes 279,
           280, and 281) and taxpayers reporting sole proprietor operations (Activity Codes 276
           and 277) who agreed to additional tax assessments of $5,000 or greater.
        B. Matched the above extract to the IRS Master File 2 and identified a universe of
           2,030 audits which did not reflect an accuracy-related penalty in the related
           taxpayer’s account. We validated the reliability of computer-processed data by
           reviewing the Integrated Data Retrieval System 3 for each audit in our sample.
        C. Obtained and reviewed correspondence case files and tax returns for all 229 audits to
           determine whether or not the accuracy-related penalty was properly considered and if
           managerial approval was obtained for nonassertion of the substantial understatement
           penalty when warranted.
        D. Secured agreement to the case review results from Headquarters analysts in the
           SB/SE and Wage and Investment Divisions.
        E. Worked with an outside statistical expert who confirmed the accuracy of our
           methodology and the potential revenue that could be generated for the entire universe

1
  Computer system used by the SB/SE Division Examination Operations function and others to control returns, input
assessments/adjustments to the Master File, and provide management reports.
2
  IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 9
                                Accuracy-Related Penalties Are Seldom
                           Considered Properly During Correspondence Audits



            of 2,030 audits for 1-year and 5-year periods if examiners properly considered and
            assessed the accuracy-related penalty.
        F. Used the Integrated Data Retrieval System to calculate the applicable Federal interest
           rate from the date of the tax assessment to December 31, 2009, for the 211 of
           229 audits sampled for which the accuracy-related penalty should have been asserted.
II.     Evaluated the adequacy of internal controls for ensuring the accuracy-related penalty is
        properly considered and applied during correspondence audits.
        A. Reviewed available documentation applicable in the Internal Revenue Code,
           Department of the Treasury Regulations, IRM (policy and procedural) sections,
           management directives, examiner training materials, and IRS public announcements
           and notices that provide the authority and reasons for assessing the penalty.
        B. Determined the adequacy of available training courses to correspondence tax
           examiners regarding the accuracy-related penalty from FYs 2007 through 2009.
        C. Used the results from FY 2009 quality reviews (National Quality Review System 4
           and Embedded Quality Review System) 5 to identify weaknesses in the use of
           the accuracy-related penalty and assessed the effectiveness of corrective actions taken
           in response to the weaknesses identified.
        D. Determined how correspondence examination first-line managers hold tax examiners
           accountable for making proper penalty determinations by reviewing IRM reporting
           requirements and additional procedures provided by SB/SE Division Headquarters
           management.
        E. Determined how department managers hold front-line managers accountable for
           ensuring penalties are properly assessed by reviewing results of the FY 2009
           operational review and procedures for department manager reviews for front-line
           managers.
III.    Assessed the status of ongoing changes to learn about efforts to improve the
        administration of the accuracy-related penalty in correspondence audits by interviewing
        SB/SE Division management and program analysts.




4
  The National Quality Review System conducts closed case reviews and provides quality measurement results for
the SB/SE Division.
5
  The Embedded Quality Review System allows field managers to provide timely feedback to individual employees
through performance case reviews.
                                                                                                      Page 10
                             Accuracy-Related Penalties Are Seldom
                        Considered Properly During Correspondence Audits



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
assessing the accuracy-related penalty in correspondence audits and the quality review system in
place to evaluate the accuracy of penalty determinations. We evaluated these controls by
reviewing source materials, interviewing management, and reviewing correspondence audit case
files and quality review results.




                                                                                           Page 11
                           Accuracy-Related Penalties Are Seldom
                      Considered Properly During Correspondence Audits



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Lisa Stoy, Audit Manager
Carole Connolly, Lead Auditor
Debra Mason, Senior Auditor
Linda Foye, Auditor
Richard Hillelson, Information Technology Specialist




                                                                                      Page 12
                           Accuracy-Related Penalties Are Seldom
                      Considered Properly During Correspondence Audits



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Communications and Liaison, Wage and Investment Division SE:W:C
Director, Compliance, Wage and Investment Division SE:W:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 13
                             Accuracy-Related Penalties Are Seldom
                        Considered Properly During Correspondence Audits



                                                                                 Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $17.5 million from additional taxes and interest owed by
    9,255 taxpayers over a 5-year period (see page 5).

Methodology Used to Measure the Reported Benefit:
To estimate the potential additional revenue associated with the difference between the number
of accuracy-related penalties assessed and the number that should be assessed in sole proprietor
and high-income taxpayer audits, we:
1. Analyzed a statistical sample of 229 audits (involving 226 taxpayers) from a population of
   2,030 audits (involving 2,012 taxpayers) closed in FY 2008 using a confidence level of
   95 percent, precision level of ±5 percent, and an error rate of 79 percent. The review of
   229 audits found 211 (92 percent) audits involving 209 taxpayers where penalties were not
   considered and assessed in accordance with IRS policies and procedures.
2. Used the results from our sample to project that 1,851 taxpayers (92 percent of the universe
   of 2,012 taxpayers) may have avoided an accuracy-related penalty that otherwise should have
   been assessed.
3. Shared our sampling methodology with an outside statistical expert who confirmed the
   accuracy of our methodology and projection.
4. Followed IRS procedures for computing the substantial understatement and negligence
   penalties related to the deficiencies owed by the 209 taxpayers involved in the 211 audits.
5. Used IRS computer programs to calculate the applicable Federal interest rate to apply the
   amount of interest owed on the penalties not asserted on the 211 audits.
6. To estimate the amount of additional taxes and interest owed by sole proprietors and
   high-income taxpayers that we estimate avoided an accuracy-related penalty that otherwise
   should have been assessed over 5 years if the IRS does not change its procedures, we
   multiplied the total amount of additional taxes and interest we estimated is owed for the


                                                                                          Page 14
                           Accuracy-Related Penalties Are Seldom
                      Considered Properly During Correspondence Audits



   examination cases closed in FY 2008 by 5 to obtain the amount of taxes and interest
   [$3,499,756 x 5 = $17,498,780].
7. To estimate the number of taxpayers who avoided an accuracy-related penalty that otherwise
   should have been assessed over 5 years if the IRS does not change its procedures, we
   multiplied the number of these taxpayers by 5 [1,851 x 5 = 9,255].




                                                                                         Page 15
                                      Accuracy-Related Penalties Are Seldom
                                 Considered Properly During Correspondence Audits



                                                                                             Appendix V

                             Negligence Penalty Lead Sheet

             Negligence or Disregard of the Rules or Regulation Lead Sheet 6662(c)

Conclusion: (Reflects the final determination on the issue.)

                                                                                                       Workpaper
Audit Steps: (Document audit steps taken or to be taken.)
                                                                                                       Reference

The Negligence or Disregard of Rules or Regulations Penalty is 20 percent of the understatement as
defined under IRC section 6662(a). (IRM 20.1.5.7).

           Penalty Determination Process                Yes   No            Instructions

1                  General Process                                 If the response to any of these
                                                                   questions is yes, the
                                                                   negligence penalty is applicable
    If a tax deficiency exists, the penalty for                    unless the taxpayer qualifies for
    negligence or disregard of rules or regulations                the reasonable cause
    must be considered for each item adjusted.                     exception.

    A. Did the taxpayer fail to make a reasonable                  If the response to all of these
       attempt to comply with Internal Revenue                     questions are no, then
       laws?                                                       negligence penalty is not
                                                                   applicable. Regardless of
    B. Did the taxpayer fail to exercise ordinary and              whether the negligence penalty
       necessary care in the preparation of the                    applies, go to Step 2 to
       return?                                                     determine if disregard of the
    C. Did the taxpayer fail to keep adequate books                rules and regulations applies.
       and records or to substantiate items                        NOTE: By definition, the
       properly?                                                   negligence penalty may not be
    D. Did the taxpayer’s position lack a reasonable               avoided by disclosure.
       basis?                                                      Therefore, a distinction
                                                                   between the negligence and
                                                                   disregard of rules and
                                                                   regulations must be made.
                                                                   (IRM 20.1.5.7)




                                                                                                       Page 16
                                        Accuracy-Related Penalties Are Seldom
                                   Considered Properly During Correspondence Audits




               Negligence or Disregard of the Rules or Regulation Lead Sheet 6662(c)

 2        Disregard of Rules and Regulations
     A. Was the taxpayer careless? (The taxpayer                If all answers in Step 2 are no,
        did not exercise reasonable diligence to                the disregard of rules or
        determine the correctness of a position that            regulations penalty is not
        is contrary to a rule or regulation.)                   applicable. Document relevant
                                                                facts below. If negligence is
     B. Was the taxpayer reckless? (The taxpayer                applicable, go to Step 4.
        made little or no effort to determine whether
        a rule or regulation exists under the                   If any of the questions in Step 2
        circumstances of the case.)                             are answered yes, go to Step 3
                                                                to consider “adequate
     C. Was the taxpayer’s disregard intentional?               disclosure.”
        (The taxpayer knew of the rule or regulation
        that is disregarded.)

 3        Disregard of Rules and Regulations
                                                                If the response to either of
           Exception - Adequate Disclosure
                                                                these questions is no, the
                                                                disregard of rules and
     A. Did the taxpayer file Form 8275 or 8275-R?              regulations portion of the
        (Regulation 1.6662-4(f))                                penalty may be applicable
                                                                unless the taxpayer qualifies for
     B. Does the item or position on the return under           the reasonable cause
        consideration have a realistic possibility of           exception. Document relevant
        being sustained on its merits?                          facts below.

 4                     Reasonable Cause                         If no, the penalty will apply.

        Based upon the examiner’s examination of
        this case does the taxpayer meet penalty                If yes, the penalty will not apply.
        relief? (IRM 20.1.5.6) (IRC 6664).                      Document relevant facts below.

 Facts: (Document the relevant facts.)

 Law: (Tax Law, Regulations, court cases, and other authorities. If Unagreed, add Argument.)

 IRC Section: § 6662(c)

 Specific citations:

 Taxpayer Position: (If applicable)
Source: SB/SE Division Servicewide Penalty Program web site.




                                                                                                      Page 17
                                    Accuracy-Related Penalties Are Seldom
                               Considered Properly During Correspondence Audits



                                                                                             Appendix VI

          Substantial Understatement Penalty Lead Sheet

                             Substantial Understatement Penalty 6662(d)
Conclusion: (Reflects the final determination on the issue.)
                                                                                                      Workpaper
Audit Steps: (Document audit steps taken or to be taken.)
                                                                                                      Reference

   The Substantial Understatement penalty is 20 percent of the underpayment attributable to the
   substantial understatement of tax. The Substantial Understatement penalty is limited to
   underpayments of income tax.

   1. Determine if there is an understatement of tax:
      An understatement is the excess of the amount of:
          Tax required to be shown on the return:                    _____________
          The amount of tax shown on return, less any rebates:       _____________
                                               Understatement:      _____________
       Note: A deficiency must exist in order to calculate the 6662(d) penalty
   2. Determine if the understatement is substantial. An understatement is substantial when it
      exceeds the greater of:
      10% of the tax required to be shown on the return for a taxable year, or $5,000.
       $10,000 for corporations, other than S corporations and personal holding companies, for
       taxable years beginning on or before October 22, 2004
   3. For a corporation (other than S corporations and personal holding companies) whose tax
      year begins after October 22, 2004, a substantial understatement of tax exists if the amount
      of the understatement exceeds the lesser of:
      10 percent of the tax required to be shown on the return for a taxable year or $10,000,000
   4. Consider any exceptions to the Substantial Understatement penalty. The amount of an
      understatement is reduced by that portion of the understatement attributable to:
      a. An item for which there is or was substantial authority (IRM 20.1.5.8.1.1) or
      b. An item the relevant facts of which were adequately disclosed and for which there is a
         reasonable basis. (IRM 20.1.5.8.1.2)

       For tax year beginning after October 22, 2004, when determining a substantial
       understatement the amount of a reportable transaction is included. However, the substantial
       understatement penalty does not apply to any amount attributable to a reportable transaction
       understatement under IRC 6662A(e)(1)(A) & (B)


                                                                                                      Page 18
                                           Accuracy-Related Penalties Are Seldom
                                      Considered Properly During Correspondence Audits




                                  Substantial Understatement Penalty 6662(d)
     5. Tax Shelter Exceptions: In general, no taxpayer may reduce an understatement for an item
        attributable to a tax shelter for taxable years beginning after October 22, 2004.
        A non-corporate taxpayer for taxable years beginning on or before October 22, 2004, may
        reduce the amount of an understatement with a tax shelter item when: There is substantial
        authority for the treatment of the item. Also, the taxpayer reasonably believed that the tax
        treatment of the item was more than likely the proper treatment. (6662(d)(2)(C)(i)(ii)
         A corporate taxpayer may reduce an understatement by a tax shelter amount if the
         corporation has reasonable cause and acted in good faith.
     6. Additional Documentation:
         a. Preparer penalties under IRC section 6694 must be considered and documented for all
         substantial understatement penalty cases. IRM 20.1.6 and 4.32
         b. Identify the penalty attributable to each adjustment in the report, explain each penalty by
         name, Code Section, and calculated penalty amount.
         c. When the accuracy-related penalty attributable to a substantial understatement of income
         tax is not asserted due to the assertion of negligence or disregard of rules or regulations any
         unagreed report will include the substantial understatement penalty as an alternative
         position.
      7. Nonassertion of 6662(d) Penalty:
         a. When the understatement is substantial but the penalty is not asserted the
         examiner must explain the applicable exceptions and the reasons for the
         nonassertion.
         b. To ensure consistency in penalty development and determination the nonassertion of the
         substantial understatement penalty is subject to managerial review.

 Facts: (Document the relevant facts.)


 Law: (Tax Law, Regulations, court cases, and other authorities. If Unagreed, add Argument)


 IRC Section: §
 Specific citations:

 Taxpayer Position: (If applicable)




Source: SB/SE Division Servicewide Penalty Program web site.




                                                                                                           Page 19
            Accuracy-Related Penalties Are Seldom
       Considered Properly During Correspondence Audits



                                                Appendix VII

Management’s Response to the Draft Report




                                                          Page 20
     Accuracy-Related Penalties Are Seldom
Considered Properly During Correspondence Audits




                                                   Page 21
     Accuracy-Related Penalties Are Seldom
Considered Properly During Correspondence Audits




                                                   Page 22
